                                                          AUDIT




 U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
 RESTORATION PROGRAM
 Grants Awarded to the State of Wisconsin,
 Department of Natural Resources
 From July 1, 2011, Through June 30, 2013




Report No.: R-GR-FWS-0006-2014                    September 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR



                                                                                           September 15, 2014
Memorandum

To:            Daniel M. Ashe
               Director, U.S. Fish and Wildlife Service

From:          Charles Haman / /   )
               Central Regional~a er or Audits, Inspections, and Evaluations

Subject:       Final Audit Report- U.S. Fish and Wildlife Service Wildlife and Sport Fish
               Restoration Program Grants Awarded to the State of Wisconsin, Department of
               Natural Resources, From July 1, 2011, Through June 30, 2013
               Report No. R-GR-FWS-0006-2014

        This report presents the results of our audit of costs claimed by the State of Wisconsin,
Department of Natural Resources (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program. The audit included claims totaling $107.7 million on 18 grants that were
open during the State fiscal years that ended June 30, 2012, and June 30, 2013 (see Appendix 1).
The audit also covered the Department's compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. The Department, however, was unable to support its in-kind match
contributions, resulting in questioned costs of $457,794 and did not maintain adequate control
over grant-funded real property.                                    ·

        We provided a draft report to FWS for a response. In this report, we summarize the
Department's and FWS Region 3's responses to our recommendations, as well as our comments
on their responses. We list the status of the recommendations in Appendix 3.

        Please provide us with a corrective action plan based on our recommendations by
December 15, 2014. The plan should provide information on actions taken or planned to address
the recommendations, as well as target dates and title(s) of the official(s) responsible for
implementation.

        Please address your response to me at:




                         Office of Audits, Inspections, and Evaluations   I Lakewood, CO
                      U.S. Department of the Interior
                      Office of Inspector General
                      12345 West Alameda Parkway, Suite 300
                      Lakewood, CO 80228

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued; actions taken to implement our
recommendations; and recommendations that have not been implemented.

       If you have any questions regarding this report, please contact the audit team leader,
Karleen Rathmann, at 303-236-9138 or me at 303-236-9243.


cc: Regional Director, Region 3, U.S. Fish and Wildlife Service




                                                                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations.......................................................................... 3
Appendix 1 .............................................................................................................. 6
Appendix 2 .............................................................................................................. 7
Appendix 3 .............................................................................................................. 8
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 16 U.S.C. §§ 669 and 777, as amended, respectively.
established the Wildlife and Sport Fish Restoration Program (Program). Under the
Program, the U.S. Fish and Wildlife Service (FWS) provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants The Acts also require that hunting and fishing license
revenues be used only for the administration of the States’ fish and game
agencies. Finally, Federal regulations and FWS guidance require States to account
for any income earned using grant funds.

Objectives
We conducted this audit to determine if the State of Wisconsin, Department of
Natural Resources (Department)—

   •   claimed the costs incurred under the Program grants in accordance with
       the Acts and related regulations, FWS guidelines, and grant agreements;
   •   used State hunting and fishing license revenues solely for fish and wildlife
       program activities; and
   •   reported and used program income in accordance with Federal regulations.

Scope
Our audit work included claims totaling approximately $107.7 million on the
18 grants open during the State fiscal years (SFYs) that ended June 30, 2012, and
June 30, 2013 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at the Department’s office in
Madison, WI, and visited three hatcheries, three satellite centers, two shooting
and rifle ranges, an education and visitor center, a service center, a science
operations center, a State lake, a State forest, a State park, and a ranger station
(see Appendix 2). We performed this audit to supplement—not replace—the
audits required by the Single Audit Act Amendments of 1996 and by Office of
Management and Budget Circular A-133.

Methodology
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.


                                                                                  1
Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor-
and license-fee accounting systems and tested their operation and reliability.
Based on the results of initial assessments, we assigned a level of risk to these
systems and selected a judgmental sample of transactions for testing. We did not
project the results of the tests to the total population of recorded transactions or
evaluate the economy, efficiency, or effectiveness of the Department’s operations.

We relied on computer-generated data for other direct costs and personnel costs to
the extent that we used these data to select Program costs for testing. Based on our
test results, we either accepted the data or performed additional testing. For other
direct costs, we took samples of costs and verified them against source documents
such as purchase orders, invoices, receiving reports, and payment documentation.
For personnel costs, we selected Department employees who charged time to
Program grants and verified their hours against timesheets and other supporting
data.

Prior Audit Coverage
On November 22, 2010, we issued “Audit on U.S. Fish and Wildlife Service
Wildlife and Sport Fish Restoration Program Grants Awarded to the State of
Wisconsin, Department of Natural Resources, From July 1, 2007, Through June
30, 2009” (Report No. R-GR-FWS-0011-2010). We followed up on all three
recommendations in the report and found that the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management and Budget (PMB),
considered two resolved and implemented and one resolved but not implemented.
As discussed in the “Findings and Recommendations” section of this report, we
are repeating the unimplemented recommendation, which deals with the
Department’s reconciliation of its real property records with FWS’ records.

We reviewed single audit reports and comprehensive annual financial reports for
SFYs 2011 and 2012. None of these reports contained any findings that would
directly affect the Program grants.


                                                                                  2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, the following conditions that resulted in our
findings, including questioned costs totaling $457,794:

   A. Questioned Costs—Unsupported In-Kind Match Contributions:
      $457,794. The Department did not provide adequate documentation
      supporting its in-kind match contributions.

   B. Inadequate Control of Real Property. The Department had not
      reconciled its Program-funded real property records with FWS’ records.

Findings and Recommendations
   A. Questioned Costs—Unsupported In-Kind Match Contributions:
      $457,794

The Program requires States to use State matching, or non-Federal, funds to cover
at least 25 percent of costs incurred in performing projects under the grants. States
may use noncash, or in-kind, contributions to meet the matching share of costs,
but as with costs claimed for reimbursement, States must support the value of
these contributions.

The Department’s claimed matching share of costs on grant W-160-P-21HE
included in-kind contributions of $3,104,502. The Department included the value
of volunteer hours on the claimed matching share and used volunteer hours from
hunter safety education classroom and range activities as in-kind match for this
grant. The required matching share of costs on this grant totaled $457,794.

The Department uses Safety Course Roster and Remittance Form 8500-065 to
document and identify the hunter education safety courses, dates, lead and
assistant instructors’ signatures, and each instructor’s total course hours. We
found that the Department did not require the lead and assistant instructors to
report their hours daily.

The Code of Federal Regulations (43 C.F.R. § 12.64 (b)(6)) outlines requirements
for matching or cost sharing records and states that organizations, to the extent
feasible, should use the same methods to support allocability of volunteer services
as it does for regular personnel costs.

The Department’s regular employees report their hours worked on a daily basis.
The Department’s Volunteer Instructor Policy and Procedure Manual, however,


                                                                                   3
does not require the volunteer hunter-education safety instructors to document
their course hours on a daily basis. This is a systemic problem, and as a result of
not following the procedures similar to those that Department employees use to
certify time, there is a potential for excess reimbursement. We noted that the
Department reported significant over-match or excess volunteer hours.

 Recommendations

 We recommend that FWS work with the Department to:

    1. Resolve the $457,794 of unsupported questioned costs on Program
       grant W-160-P-21HE; and

    2. Update its Volunteer Instructor Policy and Procedure Manual to
       require the Department personnel and volunteers to certify their
       hours daily on Safety Course Roster and Remittance Form 8500-065.


Department Response
Department officials stated that they are working with FWS to resolve the
$457,794 in questioned costs. They also stated that the Department will update its
Volunteer Instructor Policy and Procedure Manual to require volunteers to follow
the same rules as Department employees and certify their hours daily. In addition,
a revised Safety Course Roster and Remittance Form 8500-065 has been
submitted to FWS for approval. Upon approval, training on the revised form will
be piloted in August 2014 with a full rollout in calendar year 2015.

FWS Response
FWS regional officials concurred with these recommendations.

OIG Comments
Based on the Department and FWS responses, we consider these
recommendations resolved but not implemented (see Appendix 3).

   B. Inadequate Control of Real Property

During our audit, we found that the Department’s Program-funded real property
records did not reconcile with records maintained by FWS. To ensure that real
property acquired under Program grants continues to serve the purpose for which
it was obtained, the Department must ensure that its database of real property is
accurate and complete and reconciles with FWS’ land records.

Federal regulations (50 C.F.R. § 80.90 (f)) require that the Department maintain
control of all assets acquired under Program grants to ensure that they serve the
purpose for which they were acquired throughout their useful life. In addition, the
FWS Director reiterated land management requirements to Program participants


                                                                                      4
in a March 29, 2007 letter. The letter requested each State maintain a real property
management system that includes a comprehensive inventory of lands to ensure
that its inventory is accurate and complete.

Although our prior audit report, “Audit on U.S. Fish and Wildlife Service
Wildlife and Sport Fish Restoration Program Grants Awarded to the State of
Wisconsin, Department of Natural Resources, From July 1, 2007, Through June
30, 2009” (Report No. R-GR-FWS-0011-2010), identified the issue of inadequate
control of real property, FWS and Department officials both agreed that the
reconciliation had not yet been completed. FWS officials stated that they need
additional resources to resolve this issue.

Without reconciliation, neither the Department nor FWS can ensure that lands
acquired under the Program are used for their intended purposes. Therefore, we
repeat the applicable recommendation from Report No. R-GR-FWS-0011-2010,
and we will track implementation of the repeat recommendation under the
resolution process for that report.

Recommendations

Repeat Recommendation:

We recommend that FWS ensure that the Department reconciles its real
property records with FWS’ records.

New Recommendation:

We recommend that FWS require the Department to certify that grant-
funded real property is being used for its intended purposes.


Department Response
Department officials stated that they are working with FWS to ensure the
Department’s real property records reconcile to those of FWS.

FWS Response
FWS regional officials concurred with these recommendations.

OIG Comments
Based on the Department and FWS responses, we consider these
recommendations resolved but not implemented (see Appendix 3).




                                                                                  5
Appendix 1
                            State of Wisconsin
                    Department of Natural Resources
                 Financial Summary of Review Coverage
                   July 1, 2011, Through June 30, 2013


  FWS
                  FBMS**
 FAIMS*                              Grant            Claimed       Questioned
                   Grant
  Grant                             Amount             Costs          Costs
                  Number
 Number

F-84-L-76      F11AF00208            $419,091           $424,080
F-84-L-77      F12AF00780              676,900            562,382
F-95-P-33      F08AF00016            6,400,000         16,724,353
F-95-P-38      F09AF00055            1,052,920          1,914,099
F-95-P-40      F11AF00048            1,156,933          1,146,796
F-95-P-41      F11AF00204           15,320,820         19,434,096
F-95-P-42      F11AF00597            1,099,175            174,224
F-95-P-43      F11AF00598              534,084          1,156,635
F-95-P-44      F11AF00596              288,660            135,311
F-95-P-45      F12AF00509           14,472,955         18,189,795
F-95-P-46      F13AF00211              208,647                  0
F-95-P-47      F13AF00212              871,211                  0
W-142-L-92     N/A                     554,772            554,772
W-142-L-93     F12AF00239              228,205            228,205
W-142-L-94     F12AF00710              186,339            120,817
W-160-P-21     F11AF01050           17,744,468         23,158,747      $457,794
W-160-P-22     F12AP00421           16,340,032         23,797,414
W-160-P-23     F13AF00515              170,667                  0
Total                             $77,725,879       $107,721,726       $457,794

    *FAIMS stands for Federal Aid Information Management System.
    **FMBS stands for Financial Business Management System.




                                                                           6
Appendix 2
                  State of Wisconsin
             Department of Natural Resources
                      Sites Visited

                       Central Office
                         Madison

                        Hatcheries
                         Les Voigt
                       Kettle Moraine
                        Wild Rose

                      Satellite Centers
                         Haywood
                         Janesville
                         Woodruff

                 Shooting and Rifle Ranges
                         Caywood
                         Wautoma

                       Service Center
                        Rhinelander

                 Other Department Offices
     Horicon Marsh Education and Visitor Center, Horicon
             Science Operations Center, Madison
                     Silver Lake, Portage
               Brule River State Forest, Brule
            Kohler-Andrae State Park, Sheboygan
                   Ranger Station, Mercer




                                                           7
Appendix 3
                            State of Wisconsin
                     Department of Natural Resources
              Status of Audit Findings and Recommendations

Recommendations             Status                    Action Required
                                             Complete a corrective action plan
                                            that includes specific action(s) taken
                        We consider the
                                                   or planned to address the
                       recommendations
                                                  recommendations, targeted
                        resolved but not
                                               completion dates, title(s) of the
                          implemented.
                                                    official(s) responsible for
                                              implementing the action taken or
                     FWS regional officials
                                             planned, and verification that FWS
    A.1, A.2, B       concurred with the
                                             headquarters officials reviewed and
                           findings and
                                                 approved of actions taken or
                       recommendations
                                            planned by the Department. We will
                       and will work with
                                                    refer any unimplemented
                     the Department on a
                                             recommendations to the Assistant
                        corrective action
                                              Secretary for Policy, Management
                               plan.
                                                and Budget for implementation
                                               tracking by December 15, 2014.
                        We consider this
                        recommendation
                     (Recommendation B
                         from our prior
                       report, No. R-GR-
                        FWS-0011-2010)
                                                Provide documentation to the
                        resolved but not
                                                 Assistant Secretary for Policy,
     B (Repeat            implemented.
                                             Management and Budget regarding
 recommendation)
                                                   the implementation of this
                          The Assistant
                                                        recommendation.
                      Secretary for Policy,
                        Management and
                     Budget considers this
                        recommendation
                        resolved but not
                          implemented.




                                                                             8
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
